SEMIANNUAL REPORT TO THE CONGRESS

     OCTOBER 1, 2006 – MARCH 31, 2007

     OFFICE OF INSPECTOR GENERAL

   NATIONAL ENDOWMENT FOR THE ARTS
                                                           April 30, 2007



MEMORANDUM

TO:           Dana Gioia
              Chairman

FROM:         Daniel L. Shaw
              Inspector General

SUBJECT:      Semiannual Report to the Congress: October 1, 2006 – March 31, 2007


The Inspector General Act of 1978 (Public Law 95-452), as amended, calls for the preparation of
semiannual reports to the Congress summarizing the activities of the Office of Inspector General
(OIG) for the six-month periods ending each March 31 and September 30. I am pleased to enclose
the report for the period from October 1, 2006 to March 31, 2007.

The Inspector General’s report covers audits, evaluations, investigations and other reviews conducted
by the OIG as well as our review of the OMB Circular A-133 audits conducted by independent
auditors. The report also indicates the status of management decisions whether to implement or not
to implement recommendations made by the OIG. The President’s Council on Integrity and Efficiency
developed the reporting formats for Tables I and II to ensure consistent presentation by the Federal
agencies. The tables provide only summary totals and do not include a breakdown by auditee.

The Act requires that you transmit this report to the appropriate committees of the Congress within 30
days of receipt, together with any comments you may wish to make. Comments that you might offer
should be included in your "Report on Final Action," a management report that is required to be
submitted along with the Inspector General’s report. We will work closely with your staff to assist in
the preparation of the management report. The due date for submission of both reports is May 31,
2007.

I appreciate the continuing support we have received from the Chairman’s Office and your managers
throughout the Agency. Working together, I believe we have taken positive steps to improve Agency
programs and operations. We look forward to continuing these efforts.
                                 TABLE OF CONTENTS

                                                                                PAGE


NATIONAL ENDOWMENT FOR THE ARTS                                                   1

OFFICE OF INSPECTOR GENERAL                                                       1

SUMMARY OF WORK COMPLETED BY THE OIG                                              2

   Audits/Reviews                                                                 2
   Audit Resolution                                                               2
   Investigations                                                                 2
   Indirect Cost Rate Negotiations
   Review of Legislation, Rules, Regulations and Other Issuances                  3
   Technical Assistance                                                           3
   Web Site                                                                       3
   Other Activities                                                               3

SECTIONS OF REPORT                                                                4

   SECTION 1 - Significant Problems, Abuses and Deficiencies                      4

   SECTION 2 - Recommendations for Corrective Action                              4

   SECTION 3 - Recommendations in Previous Reports on Which
                 Corrective Action Has Not Been Implemented                       4

   SECTION 4 - Matters Referred to Prosecuting Authorities                        4

   SECTION 5 - Denials of Access to Records                                       4

   SECTION 6 - Listing of Reports Issued                                          5

   SECTION 7 - Listing of Particularly Significant Reports                        6

   SECTION 8 - Statistical Tables Showing Total Number of Audit Reports
                 and the Dollar Value of Questioned Costs                         6

   SECTION 9 - Statistical Tables Showing Total Number of Audit Reports
                 and the Dollar Value of Recommendations that Funds be
                 Put to Better Use by Management                                  6

   SECTION 10 - Audit Reports Issued Before the Commencement of the Reporting
                 Period for Which No Management Decision Has Been Made by
                 the End of the Reporting Period                                  6
                                   TABLE OF CONTENTS

                                                                                         PAGE


     SECTION 11 - Significant Revised Management Decisions Made During the Period           6

     SECTION 12 - Significant Management Decisions With Which the Inspector
                    General Disagrees                                                       6

TABLE I - Inspector General Issued Reports With Questioned Costs                            7

TABLE II - Inspector General Issued Reports With Recommendations That Funds
              Be Put To Better Use                                                          8

Definitions of Terms Used                                                           Appendix A
NATIONAL ENDOWMENT FOR THE ARTS
Since its founding by the U.S. Congress in 1965, the National Endowment for the Arts (NEA) has
offered assistance to a wide range of non-profit organizations and individuals that carry out arts
programming. The NEA supports exemplary projects in all the artistic disciplines. Grants are
awarded for specific projects rather than for general operating or seasonal support. Most NEA grants
must be matched dollar for dollar with non-federal funds. During FY 2007, NEA received a net
appropriation of $124.562 million. The Agency has requested $128.412 million for FY 2008, which
would support an annualized FTE level estimated at 158.


OFFICE OF INSPECTOR GENERAL
On October 18, 1988, the President signed Public Law 100-504, the Inspector General Act
Amendments of 1988. This law amended the Inspector General Act of 1978, Public Law 95-452, and
required the establishment of independent Offices of Inspector General (OIG) at several designated
Federal entities and establishments, including the National Endowment for the Arts. The Inspector
General is appointed by and serves under the general supervision of the NEA's Chairman. The
mission of the OIG is to:

       - Conduct and supervise independent and objective audits and investigations relating to NEA
         programs and operations;

       - Promote economy, effectiveness and efficiency within the NEA;

       - Prevent and detect fraud, waste and abuse in NEA programs and operations;

       - Review and make recommendations regarding existing and proposed legislation and
         regulations relating to NEA programs and operations; and

       - Keep the NEA Chairman and the Congress fully and currently informed of problems in
         Agency programs and operations.

This semiannual report summarizes the OIG's major activities, initiatives and results for the six-month
period ending March 31, 2007. During this period, the OIG consisted of two auditors and one program
analyst. There is no investigator on the staff. In order to provide a reactive investigative capability, we
have signed a Memorandum of Understanding with the Inspector General of the General Services
Administration (GSA) whereby the GSA's OIG agrees to provide investigative coverage for us on a
reimbursable basis as needed. (No investigative coverage from GSA was needed during the recent
six-month period.) We have also signed a Memorandum of Understanding with the NEA's Office of
General Counsel (OGC) that details procedures to be used for providing the OIG with legal services.
An OGC staff member has been assigned to provide such services on an as-needed basis.


                                                                                                         1
SUMMARY OF WORK COMPLETED BY THE OIG
During the six-month period ending March 31, 2007, the OIG conducted the following audits, reviews,
investigations and other activities.

Audits/Reviews

During the recent semiannual period, the OIG issued 18 reports. Of those, 16 reports were based on
audits/reviews performed by OIG personnel and two reports were the result of OIG desk reviews of
audit reports relating to grantee organizations that were required to have audits performed by
independent auditors. Overall, our reports contained 29 recommendations, 27 of which were related
to systems deficiencies or questioned costs at grantee organizations, while the remaining two
recommendations related to systems deficiencies at the NEA.

Audit Resolution

At the beginning of the six-month period, there were two reports awaiting a management decision to
allow or disallow questioned costs. During the period, one of the newly issued reports identified
questioned costs of $1,411,992 and potential refunds of $1,021,267.

Management decisions were made on two of the three open reports to allow questioned costs of
$425,449, which eliminated a potential refund of $84,318. Therefore, at the end of the period, one
report remained outstanding with questioned costs of $1,411,992 and potential refunds of $1,021,267.
(See Table I.)

Investigations

The OIG did not open any new allegation cases during the recent six-month period. There were no
prior open cases to start the period. No criminal investigations were performed during the period.

Indirect Cost Rate Negotiations

Indirect costs are incurred for common or joint objectives, which cannot be readily and specifically
identified with a particular project or activity. The costs of operating and maintaining facilities,
depreciation or use allowances, and administrative salaries and supplies are typical examples of costs
that nonprofit organizations usually consider to be indirect.

Indirect cost rates are negotiated by agreement between a non-Federal organization and a Federal
agency (usually the agency that furnishes the preponderance of Federal funding) that acts on behalf
of all Federal agencies in approving rates with the organization. During this period, the OIG
negotiated six indirect cost rate agreements with NEA grantee organizations.

The OIG also makes use of an Indirect Cost Guide. The Guide answers such questions as: What are
direct or indirect costs, what is an indirect cost rate, and does an entity need an indirect cost rate? A
copy of the Guide can be found on NEA’s web site at www.arts.gov/about/OIG/IndirectCost.html.




                                                                                                        2
Review of Legislation, Rules, Regulations and Other Issuances

The OIG is required to review and comment on proposed legislation and regulations for their potential
impact on the Agency and its operations. During this reporting period, the OIG provided analyses and
written commentaries on Agency and other government publications/reports.

Technical Assistance

The OIG provided technical assistance to NEA grantees and their independent auditors. Our efforts
included, for example, clarifying and interpreting the audit requirements of OMB Circular A-133,
“Audits of States, Local Governments, and Non-Profit Organizations," explaining alternative methods
of accounting for indirect costs, and advising some of the first-time and smaller organizations on
implementing practical accounting systems and internal controls sufficient to assure compliance with
their grant agreements.

The OIG also assisted Agency staff with technical issues related to auditing, accounting and audit
followup.

Web Site

The OIG maintains an ongoing Internet presence (www.arts.gov/about/OIG/Contents.html) to assist
and inform NEA grantees and Agency employees. The site includes the Inspectors General Vision
Statement, our two Financial Management Guides, our Indirect Cost Guide, past Semiannual Reports
to the Congress, the OIG Strategic Plan, contact information about OIG staff, how to report wrongful
acts, information about alternative methods of funding, and answers to frequently asked questions.

Other Activities

During this period, the OIG took part in the activities of the Executive Council on Integrity and
Efficiency (ECIE), and allocated resources for responding to information requests from and for the
Congress and other agencies. The OIG also provided oversight of the Agency’s independent auditors
as they completed the Agency’s fourth annual financial statement audit for the fiscal year ending
September 30, 2006.

Based on the successful implementation of the “Financial Management System & Compliance
Evaluation Program of NEA grantees,” the OIG determined to continue this program and extend it to
other areas around the country. The objective of this evaluation is to determine whether the auditee’s
financial management system and recordkeeping comply with the requirements established by the
Office of Management and Budget and the NEA’s General Terms and Conditions for Grants and
Cooperative Agreements to Organizations.




                                                                                                     3
                                  SECTIONS OF REPORT
The following sections of this report discuss the 12 areas specifically required to be included
according to Section 5(a) of the Act. Table I shows Inspector General issued reports with
questioned costs and Table II also shows that there were no Inspector General issued reports with
recommendations that funds be put to better use.

SECTION 1 – Significant Problems,                   SECTION 2 – Recommendations for
Abuses and Deficiencies                             Corrective Action

Audits, evaluations and other reviews               To assist grantees in correcting or avoiding
conducted by OIG personnel during the               the deficiencies identified in Section 1, the
current and prior periods have disclosed a          OIG utilizes two “Financial Management
few instances of deficient financial                Guides,” one for non-profit organizations and
management practices in some organizations          the other for state and local governments.
that received NEA grants. Among these               The guides are not offered as complete
were:                                               manuals of procedures; rather, they are
                                                    intended to provide practical information on
   Reported grant project costs did not agree       what is expected from grantees in terms of
   with the accounting records, i.e., financial     fiscal accountability. The guides are available
   status reports were not prepared directly        at www.arts.gov/about/OIG/Contents.html
   from the general ledger or subsidiary
   ledgers or from worksheets reconciled to         The guides discuss accountability standards
   the accounts;                                    in the areas of financial management, internal
                                                    controls, audit and reporting. The guides also
   Personnel costs charged to grant projects        contain sections on unallowable costs and
   were not supported by adequate                   shortcomings to avoid. In addition, the guides
   documentation, i.e., personnel activity          include short lists of useful references and
   reports were not maintained to support           some sample documentation forms.
   allocations of personnel costs to NEA
   projects;                                        SECTION 3 – Recommendations in
                                                    Previous Reports on Which Corrective
   The amount allocated to grant projects for       Action Has Not Been Implemented
   common (indirect) costs which benefited
   all projects and activities of the               There were no significant recommendations
   organization was not supported by                in previous reports on which corrective action
   adequate documentation; and                      has not been implemented.

                                                    SECTION 4 – Matters Referred to
   Grantees needed to improve internal
   controls, such as ensuring a proper              Prosecuting Authorities
   separation of duties to safeguard
                                                    No matters were referred to prosecuting
   resources and including procedures for
                                                    authorities during this reporting period.
   comparing actual costs with the budget.
                                                    SECTION 5 – Denials of Access to
                                                    Records

                                                    No denials of access to records occurred
                                                    during this reporting period.

                                                                                                     4
                                          SECTION 6 – Listing of Reports Issued

REPORT                                                                                                                                                               DATE OF
NUMBER                                                                 TITLE                                                                                         REPORT


                                                     Oversight Audit Agency Review Reports

OAA-07-01   Mid-America Arts Alliance ................................................................................................................................. 11/02/2006
OAA-07-02   Mid Atlantic Arts Foundation, Inc. ..................................................................................................................... 12/13/2006


                                                              Limited Scope Audit Reports

LS-07-01     New York Foundation for the Arts ................................................................................................................... 12/06/2006
LS-07-02     Montana Arts Council ...................................................................................................................................... 12/14/2006


                                  Financial Management System & Compliance Evaluation Reports

SCE-07-01    National Black Arts Festival, Inc. ..................................................................................................................... 11/06/2006
SCE-07-02    Robert W. Woodruff Arts Center, Inc............................................................................................................... 12/13/2006
SCE-07-03    Mattress Factory, Ltd. ..................................................................................................................................... 01/18/2007
SCE-07-04    Manchester Craftmen’s Guild, Inc. ................................................................................................................. 01/24/2007
SCE-07-05    Florida International University ........................................................................................................................ 02/01/2007
SCE-07-06    New World Symphony, Inc. ............................................................................................................................. 02/05/2007
SCE-07-07    Tigertail Productions, Inc. ................................................................................................................................ 02/05/2007
SCE-07-08    Teatro Avante, Inc. .......................................................................................................................................... 02/05/2007
SCE-07-09    Pittsburgh Opera, Inc. ..................................................................................................................................... 02/07/2007
SCE-07-10    Florida Dance Association, Inc. ....................................................................................................................... 02/22/2007
SCE-07-11    Miami Light Project, Inc. .................................................................................................................................. 02/22/2007
SCE-07-12    Miami Dade College ........................................................................................................................................ 02/23/2007
SCE-07-13    Pittsburgh Symphony Orchestra, Inc............................................................................................................... 02/27/2007


                                                                          Audit Report

A-07-01      Audit of NEA’s Financial Statements ............................................................................................................... 11/15/2006




                                                       TOTAL REPORTS – 18




                                                                                                                                                                        5
SECTION 7 – Listing of Particularly               SECTION 11 – Significant Revised
Significant Reports                               Management Decisions Made During the
                                                  Period
There were no particularly significant reports
during the reporting period.                      No significant revised management
                                                  decisions were made during the reporting
SECTION 8 – Statistical Tables Showing            period.
Total Number of Audit Reports and the
Dollar Value of Questioned Costs                  SECTION 12 – Significant Management
                                                  Decisions With Which the Inspector
Table I of this report presents the statistical   General Disagrees
information showing the total number of audit
reports and the total dollar value of             There were no significant management
questioned costs.                                 decisions that the Inspector General
                                                  disagreed with during the reporting period.
SECTION 9 – Statistical Tables Showing
Total Number of Audit Reports and the
Dollar Value of Recommendations that
Funds be Put to Better Use by
Management

As shown on Table II, there were no audit
reports with recommendations that funds be
put to better use by management.

SECTION 10 – Audit Reports Issued
Before the Commencement of the
Reporting Period for Which No
Management Decision Has Been Made by
the End of the Reporting Period

There were no audit reports issued before the
commencement of the reporting period for
which no management decision has been
made by the end of the reporting period.




                                                                                                6
                                                      TABLE I

                      INSPECTOR GENERAL ISSUED REPORTS
                            WITH QUESTIONED COSTS


                                                                     QUESTIONED UNSUPPORTED                     POTENTIAL
                                                      NUMBER             COSTS                COSTS             REFUNDS1
  A. For which no management decision
      has been made by the commencement
      of the reporting period                              2                425,449           (425,449)              84,318


  B. Which were issued during the reporting
      period                                               1             1,411,992         (1,411,992)           1,021,267


      Subtotals (A + B)                                    3             1,837,441         (1,837,441)           1,105,585


  C. For which a management decision was
      made during the reporting period                     2                425,449           (425,449)              84,318


       (i)       Dollar value of disallowed costs          0                       0                  (0)                  0


       (ii)      Dollar value of costs not
                 disallowed                                2                425,449           (425,449)              84,318


  D. For which no management decision has
      been made by the end of the reporting
      period                                               1             1,411,992         (1,411,992)           1,021,267


      Reports for which no management
      decision was made within six months of
      issuance                                             0                       0                  (0)                  0




1/ The potential refund amount usually will not equal the questioned costs amount because matching requirements must be

   considered and the grantee may be either under or over matched. In addition, historically, the potential refund generally is
   reduced significantly as a result of the audit followup process, which includes examination of documentation submitted by the
   grantee.



                                                                                                                                  7
                                      TABLE II

         INSPECTOR GENERAL ISSUED REPORTS
WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                            DOLLAR
                                                   NUMBER    VALUE

 A. For which no management decision has been
    made by the commencement of the reporting
    period                                           0        0

 B. Which were issued during the reporting
    period                                           0        0

    Subtotals (A + B)                                0        0

 C. For which a management decision was made
    during the reporting period                      0        0

    (i) dollar value of recommendations
        that were agreed to by management            0        0

        -   based on proposed management
            action                                   0        0

        -   based on proposed legislative action     0        0

    (ii) dollar value of recommendations
         that were not agreed to by management       0        0

 D. For which no management decision has been
    made by the end of the reporting period          0        0

    Reports for which no management decision
    was made within six months of issuance           0        0




                                                                     8
                                                                                  APPENDIX A

                            DEFINITIONS OF TERMS USED

The following definitions apply to terms used in reporting audit statistics:


Questioned Cost                       A cost that the Office of Inspector General (OIG)
                                      questioned because of alleged violation with a provision of
                                      a law, regulation, contract, or other agreement or
                                      document governing the expenditure of funds; such cost is
                                      not supported by adequate documentation; or the
                                      expenditure of funds for the intended purpose is
                                      unnecessary or unreasonable.

Unsupported Cost                      A cost which the OIG questioned because the cost was
                                      not supported by adequate documentation at the time of
                                      the audit.

Disallowed Cost                       A questioned cost that management has sustained or
                                      agreed should not be charged to the NEA grant or
                                      cooperative agreement.

Funds Be Put To Better Use            A recommendation made by the OIG that funds could be
                                      used more efficiently if management took actions to
                                      implement and complete the recommendation.

Management Decision                   Management's evaluation of the findings and
                                      recommendations contained in the audit report and the
                                      issuance of management’s final decision, including actions
                                      to be taken. Interim decisions and actions are not
                                      considered final management decisions for the purpose of
                                      the tables in this report.

Final Action                          The completion of all actions that management has
                                      concluded in its management decision with respect to
                                      audit findings and recommendations. If management
                                      concluded that no actions were necessary, final action
                                      occurs when a management decision was made.
                      REPORTING WRONGFUL ACTS

Anyone, including Agency employees, who learns about or has reason to suspect the
occurrence of any unlawful or improper activity related to NEA operations or programs,
should contact the OIG immediately. A complaint/referral may be made by visiting the
OIG office, calling the OIG at 202-682-5402, emailing at oig@arts.endow.gov or writing to
the Office of Inspector General, Room 601, 1100 Pennsylvania Avenue, NW, Washington,
DC 20506.



When contacting the OIG, it will help if you have answers to the following questions:
       Who are the parties involved (names, addresses and phone numbers if possible);

       What is the suspected activity (specific facts of the wrongdoing);

       When and where did the wrongdoing occur;

       How did you learn about the activity (from a third party, actual observation, conclusion drawn from
       observing or performing different activities, etc.); and

       Where can you be contacted or when will you contact us again.



The OIG will not disclose the identity of a complainant or informant without consent,
unless the Inspector General determines that such disclosure is unavoidable during the
course of the investigation. You may remain anonymous, if you choose. Federal employees
are protected against reprisal for disclosing information to the Inspector General unless
such disclosure was knowingly false.
 CHAIRMAN’S SEMIANNUAL REPORT
        ON FINAL ACTION
 RESULTING FROM AUDIT REPORTS

October 1, 2006 through March 31, 2007


              Submitted
              May 2007
                              TABLE OF CONTENTS




INTRODUCTION                                                            1


REPORT ON FINAL ACTION RESULTING FROM AUDIT REPORTS

  Section 1    Comments Relating to the Inspector General's Report      2

  Section 2    Management Report on Final Action on Audits with         3
               Disallowed Costs for the Six-Month Period Ending
               March 31, 2007

  Section 3    Management Report on Final Action on Audits with         3
               Recommendations to Put Funds to Better Use for
               the Six-Month Period Ending March 31, 2007

  Section 4    Audit Reports for Which a Management Decision Was        3
               Made Prior to April 1, 2006, but on Which Final Action
               Has Not Occurred

  Table A      Management Report on Final Action on Audits with         5
               Disallowed Costs for the Six-Month Period Ending
               March 31, 2007

  Table B      Management Report on Final Action on Audits with         6
               Recommendations to Put Funds to Better Use for the
               Six-Month Period Ending March 31, 2007
                                  INTRODUCTION


The Inspector General Act of 1978, as amended by the Inspector General Act Amendments of
1988 (Public Law 100-504), established independent, objective units within Federal agencies
for the following purposes:

   •   To supervise and conduct audits and investigations of agency programs and operations;

   •   To lead, coordinate, and recommend policies for promoting economy, efficiency, and
       effectiveness in the administration of programs and operations, and to prevent and
       detect fraud and abuse therein; and

   •   To keep the agency head and the Congress informed about related problems and
       deficiencies and associated corrective action.

Section 106(a) of P.L. 100-504 requires the Inspector General to report semiannually on the
office’s activities for the preceding six-month periods ending March 31st and September 30th.
The report must (1) address significant problems, abuses, and deficiencies in the management
of agency programs and operations identified during the reporting period, and (2) identify
recommendations for corrective action. Section 106(b) directs the Inspector General to furnish
this report within 30 days to the agency head, who is required to prepare a separate report on
management decisions resulting from audit reports, the status of disallowed costs, and final
actions taken during the corresponding period, including any comments deemed appropriate.
The agency head must transmit both reports to the Congress within the ensuing 30 days.

Accordingly, the Chairman presents the Arts Endowment’s management report for the period
October 1, 2006 through March 31, 2007.




                                              1
        REPORT ON FINAL ACTION RESULTING FROM AUDIT REPORTS


Section 1.   Comments Relating to the Inspector General's Report

             A. Comments on OIG’s Summary Section

             Audits/Reviews. As reported in the Inspector General’s Semiannual Report to the
             Congress, at the end of the reporting period there was just one outstanding report
             with questioned costs and potential refunds (see Section 2); management
             continues to work with the auditee to resolve the outstanding audit issues.

             When the Audit Followup Official disallows questioned costs, it is typically
             because the grantee or cooperator has responded inadequately to the Arts
             Endowment’s request for supporting documentation, such as canceled checks,
             invoices, contracts, personnel activity reports, or testimonial evidence. Agency
             funds may represent only a small portion of an awardee’s total project costs.
             Deficiencies normally are resolved through the Agency’s audit resolution process,
             and refunds are infrequent.

             Technical Assistance: Improved Oversight. The Arts Endowment places a high
             priority on ensuring employees are well informed about policies, procedures, and
             requirements related to grants administration and audits. The Grants & Contracts
             Office routinely conducts training on various topics for Agency staff, including
             targeted one-on-one training as necessary. During the period, the Grants &
             Contracts Office and the OIG continued to provide technical assistance and
             compliance evaluations for grantees.

             Web Site. The Arts Endowment continues to provide its “My Grant at a Glance”
             feature on the Agency Web site. In addition to tracking the status of payment
             requests online, grantees can obtain historical reports of their grants back to at
             least 1988. The reports include the amount of the grant, the period of support,
             and a brief project description. The Arts Endowment also enhanced the user-
             friendliness of its online grant application information and the electronic
             application submission process. Electronic application submission (through
             Grants.gov, the government-wide grant application portal) is almost universally
             required across all Arts Endowment programs; applicants unable to apply
             electronically must request permission from the Agency to submit paper
             applications.

             Other Activities. Arts Endowment staff continued to work closely with the OIG
             on issues of mutual interest, most notably the independent audit of the Agency’s
             financial statements for fiscal year 2006; this was the Agency’s fourth such audit,
             and resulted in the fourth straight “unqualified” opinion.


                                               2
             B. Comments on OIG’s Sections 1 and 2

             OIG audit and evaluation reports on Arts Endowment awardees are based upon
             reviews conducted by the OIG itself or upon OIG analysis of audits completed by
             outside auditors. The outside audits may be performed by State audit agencies, by
             other Federal agencies (generally the agency providing the greatest amount of
             Federal funding to an organization also supported by the Arts Endowment), or by
             independent public accountants engaged by awardees.

Section 2.   Management Report on Final Action on Audits with Disallowed Costs for the
             Six-Month Period Ending March 31, 2007 (Section 8 of the OIG Report)

             There were two audit reports with management decisions made that were awaiting
             final action at the beginning of the period; final action on one of them occurred
             during the period (receipt of the final installment payment on a total $30,000
             required refund). Management decisions were made in resolving two additional
             audits issued prior to this period, which resulted in final actions where no
             recovery was required since no costs were disallowed. (See Table A).

             As final actions continue to occur, including receipt of required refunds, such
             actions will be reported in subsequent Chairman’s Semiannual Reports.

Section 3.   Management Report on Final Action on Audits with
             Recommendations to Put Funds to Better Use for the Six-Month Period
             Ending March 31, 2007 (Section 9 of the OIG report)

             There were no audits with recommendations to put funds to better use awaiting
             final action as of March 31, 2007 (see Table B).

Section 4.   Audit Reports for Which a Management Decision Was Made Prior to
             April 1, 2006, but on Which Final Action Has Not Occurred

             One management decision was made prior to April 1, 2006 on which final action
             has not yet occurred. This decision involved Report No. LS-04-05, on the
             Educational Broadcasting Corporation, which was issued on August 27, 2004.
             Management requested a refund of $363,014 (representing the remaining portion
             of the unused $500,000 that had been disbursed to the auditee since the grant was
             awarded). Management also requested payment of $105,596.89 in accrued
             interest on the unused funds, plus a final payment by August 31, 2007 for interest
             accrued during the repayment period. On September 27, 2004, the auditee
             refunded the remaining portion of the unused grant funds and agreed to an
             installment payment plan for the interest. The auditee is current with payments,
             having returned both the unused grant funds and $70,397.20 in interest through
             March 31, 2007.



                                               3
                                          TABLE A

                 MANAGEMENT REPORT ON FINAL ACTION
                  ON AUDITS WITH DISALLOWED COSTS
            FOR THE SIX-MONTH PERIOD ENDING MARCH 31, 2007


                                                     # OF AUDIT DISALLOWED POTENTIAL
                        ITEM                          REPORTS      COSTS   REFUNDS

A.   Audit reports with management decisions
     on which final action had not been
     completed at the beginning of the reporting
     period.
                                                         2          $462,964   $498,611

B.   Audit reports on which management
     decisions were made during the period.

                                                         2                0          0

C.   Total audit reports pending final action
     during the period (A + B).
                                                         4           462,964    498,611

D.   Audit reports on which final action was
     taken during the period:



     1. Recoveries

       a. Collection & offsets                           1            99,950     30,000

       b. Property                                       0                0          0

       c. Other                                          2                0          0


     2. Write-offs                                       0                0          0


     3. Total (D1 + D2)                                 3             99,950     30,000


E.   Audit reports needing final action at the
     end of the period (C – D3).
                                                         1         $363,0164   $468,611




                                                 4
                                          TABLE B

         MANAGEMENT REPORT ON FINAL ACTION ON AUDITS
        WITH RECOMMENDATIONS TO PUT FUNDS TO BETTER USE
          FOR THE SIX-MONTH PERIOD ENDING MARCH 31, 2007

                                                                               FUNDS TO BE
                                                                  # OF AUDIT     PUT TO
                               ITEM                                REPORTS     BETTER USE


A.   Audit reports with management decisions on which final
     action had not been taken at the beginning of the
     reporting period.
                                                                      0            $0


B.   Audit reports on which management decisions were
     made during the period.
                                                                      0             0


C.   Total audit reports pending final action during the period
     (A + B).
                                                                      0             0


D.   Audit reports on which final action was taken during the
     period:


     1. Dollar value of recommendations
        implemented:

        a. Based on management action                                 0             0
        b. Based on proposed legislative action                       0             0


     2. Dollar value of recommendations not
        implemented
                                                                      0             0


     3. Total (D1 + D2)                                               0             0

E.   Audit reports needing final action at end of the period
     (C – D).
                                                                      0            $0




                                               5
